INDEX TO APPENDIX
Page No.
A.

Order;
United States Court of Appeals for the Ninth Circuit ............. 0002
Filed August 26, 2020

B.

Memorandum;
United States Court of Appeals for the Ninth Circuit ............. 0004
Filed July 20, 2020

C.

Order;
United States Court of Appeals for the Ninth Circuit ............. 0010
Filed June 4, 2020

D.

Order;
United States Court of Appeals for the Ninth Circuit ............. 0013
Filed June 3, 2020

E.

Order Denying Emergency Motion for Release;
United States District Court, District of Nevada..................... 0015
Filed May 4, 2020

F.

Order of Affirmance;
Supreme Court of the State of Nevada ..................................... 0025
Filed December 27, 2006

G.

Judgment of Conviction;
Eighth Judicial District Court, Clark County, Nevada ........... 0036
Filed March 11, 2005

App. 0001

EXHIBIT A

EXHIBIT A

App. 0002
Case: 20-16039, 08/26/2020, ID: 11803245, DktEntry: 17, Page 1 of 1

FILED
AUG 26 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ALFRED PAUL CENTOFANTI III,
Petitioner-Appellant,
v.
DWIGHT W. NEVEN; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-16039
D.C. No.
2:13-cv-01080-JAD-PAL
District of Nevada,
Las Vegas

ORDER

Respondents-Appellees.

Before: CLIFTON, D.M. FISHER,* and M. SMITH, Circuit Judges.
The panel has unanimously voted to deny Petitioner-Appellant's petition for
rehearing. Judge M. Smith voted to deny the petition for rehearing en banc, and
Judge Clifton and Judge Fisher so recommend.
The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petitions for rehearing and rehearing en banc (Docket Entry No. 16) are
DENIED.

*

The Honorable D. Michael Fisher, United States Circuit Judge for the
U.S. Court of Appeals for the Third Circuit, sitting by designation.

App. 0003

EXHIBIT B

EXHIBIT B

App. 0004

(1 of 9)

Case: 20-16039, 07/20/2020, ID: 11758149, DktEntry: 15-1, Page 1 of 5

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

JUL 20 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

ALFRED PAUL CENTOFANTI III,
Petitioner-Appellant,

No.

20-16039

D.C. No.
2:13-cv-01080-JAD-PAL

v.
DWIGHT W. NEVEN; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

MEMORANDUM*

Respondents-Appellees.

Appeal from the United States District Court
for the District of Nevada
Jennifer A. Dorsey, District Judge, Presiding
Argued and Submitted July 8, 2020
Seattle, Washington
Before: CLIFTON, D.M. FISHER,** and M. SMITH, Circuit Judges.
Petitioner Alfred Paul Centofanti III seeks a writ of mandamus directing the
federal district court to order his release from Nevada state prison pending either

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable D. Michael Fisher, United States Circuit Judge for the
U.S. Court of Appeals for the Third Circuit, sitting by designation.

App. 0005
Case: 20-16039, 07/20/2020, ID: 11758149, DktEntry: 15-1, Page 2 of 5

(i) a decision on his 28 U.S.C. § 2254 habeas petition or (ii) an effective COVID19 vaccine. We deny the petition.
“The remedy of mandamus is a drastic one.” Bauman v. U.S. Dist. Court,
557 F.2d 650, 654 (9th Cir. 1977). A petitioner must demonstrate “exceptional
circumstances amounting to a judicial ‘usurpation of power.’” Id. (internal
quotation marks and citation omitted). To determine whether mandamus relief is
warranted, we consider “five specific guidelines: (1) The party seeking the writ has
no other adequate means, such as a direct appeal, to attain the relief he or she
desires;” “(2) The petitioner will be damaged or prejudiced in a way not
correctable on appeal. (This guideline is closely related to the first.);” “(3) The
district court’s order is clearly erroneous as a matter of law;” “(4) The district
court’s order is an oft-repeated error, or manifests a persistent disregard of the
federal rules;” and “(5) The district court’s order raises new and important
problems, or issues of law of first impression.” Id. at 654–55 (citations omitted).
While “[n]ot every factor need be present at once . . . the absence of the third
factor, clear error, is dispositive.” Burlington N. & Santa Fe Ry. Co. v. U.S. Dist.
Court for Dist. of Mont., 408 F.3d 1142, 1146 (9th Cir. 2005).
To qualify for pre-decisional release from state prison pending a federal
habeas petition, a petitioner must show that the habeas petition has a high
2

(2 of 9)

App. 0006
Case: 20-16039, 07/20/2020, ID: 11758149, DktEntry: 15-1, Page 3 of 5

probability of success and that special circumstances justify his release. See United
States v. Dade, 959 F.3d 1136, 1138 (9th Cir. 2020) (“the prisoner must show that,
‘in addition to there being substantial questions presented by the appeal, there is
some circumstance making this application exceptional and deserving of special
treatment in the interests of justice’”) (quoting Aronson v. May, 85 S. Ct. 3, 5
(1964)). See also Benson v. State of Cal., 328 F.2d 159, 162 (9th Cir. 1964) (“It
would not be appropriate for us at this stage of the proceeding to enlarge this
petitioner on bail even if we found that the allegations of his petition for habeas
corpus made out a clear case for his release. Something more than that is required
before we would be justified in granting bail.”).
We conclude that the district court did not clearly err in holding that
Centofanti had not demonstrated that his habeas petition made out a clear case for
his release. After being convicted of first-degree murder in Nevada state court, he
seeks habeas relief on the grounds that one of the jurors did not disclose during
voir dire that she had once been convicted of a felony. He argues that her
participation in the jury violated his federal constitutional rights. He previously
made this argument to the Nevada Supreme Court, which disagreed. The court
concluded that while it appeared that the juror had intentionally concealed her
felony status, Centofanti had not shown that he was prejudiced by her conduct.
3

(3 of 9)

App. 0007
Case: 20-16039, 07/20/2020, ID: 11758149, DktEntry: 15-1, Page 4 of 5

This was because the juror’s two-decades’ old felony conviction—for obtaining
property in exchange for a worthless check—was entirely unrelated to Centofanti’s
murder charge. Because of this lack of prejudice, the court concluded that
Centofanti was not entitled to a new trial under the Sixth Amendment.
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), an
application for a writ of habeas corpus may only be granted if the state court’s
adjudication “(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted in a decision that was based on
an unreasonable determination of the facts in light of the evidence presented in the
State court proceeding.” 28 U.S.C. § 2254(d).
In McDonough Power Equip., Inc. v. Greenwood, 464 U.S. 548, 556 (1984),
the Supreme Court established when defendants are entitled to a new trial due to a
juror’s concealment. To obtain a new trial “in such a situation, a party must first
demonstrate that a juror failed to answer honestly a material question on voir dire,
and then further show that a correct response would have provided a valid basis for
a challenge for cause. The motives for concealing information may vary, but only
those reasons that affect a juror’s impartiality can truly be said to affect the fairness
of a trial.” McDonough, 464 U.S. at 556.
4

(4 of 9)

App. 0008
Case: 20-16039, 07/20/2020, ID: 11758149, DktEntry: 15-1, Page 5 of 5

Courts have differed as to how to apply the McDonough test, but our court
has recently held that, for AEDPA purposes, it is not “unreasonable for [a] state
court to conclude that McDonough accommodates a prejudice analysis.” Scott v.
Arnold, __ F.3d __, No. 18-16761, 2020 WL 3408712, at *2 (9th Cir. June 22,
2020). See also Dyer v. Calderon, 151 F.3d 970, 973 (9th Cir. 1998) (construing
McDonough as requiring courts to “determine whether [a juror’s] answers were
dishonest and, if so, whether this undermined the impartiality of [the] jury”). Thus,
under Ninth Circuit precedent, the Nevada Supreme Court was permitted to require
a prejudice showing to overturn a conviction, as it did in Centofanti’s case.
Moreover, it was permitted to hold that no prejudice had been shown.
As a result, we cannot conclude that the federal district court clearly erred in
determining that Centofanti had not shown a high likelihood that his habeas
petition would succeed. For this reason, though we understand that Centofanti has
a high-risk status for COVID-19, we must deny his petition for mandamus relief.
Petition DENIED.

5

(5 of 9)

App. 0009

EXHIBIT C

EXHIBIT C

App. 0010
Case: 20-16039, 06/04/2020, ID: 11710855, DktEntry: 5, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 4 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ALFRED PAUL CENTOFANTI III,
Petitioner-Appellant,
v.
DWIGHT W. NEVEN; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

No.

20-16039

D.C. No.
2:13-cv-01080-JAD-PAL
District of Nevada,
Las Vegas
ORDER

Respondents-Appellees.
Before: GRABER and WARDLAW, Circuit Judges.
Appellant’s alternate request to construe this appeal as a petition for a writ of
mandamus (Docket Entry No. 2) is granted.
The motion to expedite (Docket Entry No. 3) is granted in part and denied as
unnecessary in part.
The petition for a writ of mandamus at Docket Entry No. 2-2 raises issues
that warrant an answer. See Fed. R. App. P. 21(b).
Within 14 days after the date of this order, appellees shall file an answer to
the mandamus petition.
The district court, also within 14 days after the date of this order, may
address the petition if it so desires. The district court may elect to file an answer
with this court or to issue a supplemental order and serve a copy on this court.
AC/MOATT

App. 0011
Case: 20-16039, 06/04/2020, ID: 11710855, DktEntry: 5, Page 2 of 2

Appellant may file a reply within 5 days after service of the answer(s).
The Clerk shall place this case on the calendar for July 2020. See 9th Cir.
Gen. Order 3.3(g).
The Clerk shall serve this order on the district court and District Judge
Dorsey.

AC/MOATT

2

App. 0012

EXHIBIT D

EXHIBIT D

App. 0013
Case: 20-16039, 06/03/2020, ID: 11709401, DktEntry: 4, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

JUN 3 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ALFRED PAUL CENTOFANTI III,
Petitioner-Appellant,
v.
DWIGHT W. NEVEN; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

No.

20-16039

D.C. No.
2:13-cv-01080-JAD-PAL
District of Nevada,
Las Vegas
ORDER

Respondents-Appellees.
No judge has requested a vote to hear this case initially en banc within the
time allowed by GO 5.2(a). The petition for initial hearing en banc (Docket Entry
No. 2) is therefore denied. The alternative motion to construe the appeal as a
petition for writ of mandamus and motion to expedite will be addressed separately.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Paul Keller
Deputy Clerk
Ninth Circuit Rule 27-7

App. 0014

EXHIBIT E

EXHIBIT E

App. 0015

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 1 of 9

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3 Alfred Paul Centofanti, III,
4

Case No.: 2:13-cv-01080-JAD-PAL

Petitioner
v.

Order Granting Motion to
Reopen for Limited Purpose
but Denying Emergency Motion
for Release

5
Dwight Neven, et al.,
6
Defendants
7

[ECF Nos. 45, 47]
8
9

Federal habeas petitioner and Nevada inmate Alfred Paul Centofanti, III, moves for

10 emergency release from state custody pending a decision on the merits of his federal habeas
11 petition, citing his risk of infection by the coronavirus disease (COVID-19). 1 The State opposes
12 the request, arguing that it must be directed instead to the Nevada state courts because this
13 federal action has been stayed pending state-court exhaustion of his claims 2 and, regardless, it
14 fails on its merits. I deny Centofanti’s motion because, even if this court has the authority to
15 consider such relief, he has not demonstrated that this is an extraordinary case justifying his
16 release from a double life sentence.
17

Background

18

Centofanti is serving two consecutive sentences of life without the possibility of parole at

19 the Nevada Department of Corrections’ (NDOC) High Desert State Prison (HDSP) 3 after a jury
20 found him guilty of first-degree murder with the use of a deadly weapon. 4 This federal habeas
21
22
23

1

ECF No. 45.

2

See ECF Nos. 1, 40.

3

ECF No. 45 at 27.

4

ECF No. 21-8 at 8.

App. 0016

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 2 of 9

1 action was stayed six years ago to allow Centofanti to exhaust his claims in state court, 5 and that
2 state-court litigation is still ongoing. 6 He moves this court to lift that stay 7 for the limited
3 purpose of granting him release “pending a decision on the merits of his [currently-stayed
4 federal] petition, or pending the administration of an effective vaccine for COVID-19, whichever
5 comes first.” 8 The State opposes any such relief as both unavailable and unwarranted. 9
6
Discussion
7
A.
8

I assume, for purposes of this motion only, that this court has the authority to grant
Centofanti pre-decision release.

9

Federal Rule of Appellate Procedure 23 “does not appear to contemplate release on bail

10 pending an initial decision in district court,” 10 so there are no federal rules or statutes addressing
11 this court’s authority to grant release pending a decision on the merits of a federal habeas
12 petition. The Ninth Circuit has not resolved the issue of “whether a district court has the
13 authority to grant bail pending a decision on a 28 U.S.C. § 2254 habeas corpus petition.” 11 But it
14 has noted that “some modern authorities appear to favor recognizing a federal court’s power to
15
16
17
18
19
20
21
22
23

5

ECF No. 40.

6

See ECF No. 47 at 2.

7

Id. at

8

ECF No. 45 at 2.

9

ECF No. 49 at 3–5 (citing Fed. R. App. P. 23 (governing the transfer of custody pursuant to an
application by a custodian while a federal habeas petition is pending and the release of a prisoner
when a federal habeas decision is under review)). Respondents also argue that because
Centofanti is being held under a state judgment and is seeking relief in state court, the proper
venue for his motion for release is in the state district court. Id. at 3. Centofanti responds that
Respondents fail to cite any authority in support of their argument that the ability to request
release in state court removes the federal court’s authority to allow release. ECF No. 50 at 2.
Because I deny Centofanti’s emergency motion on its merits, I find that it is unnecessary to
resolve this argument.

10

In re Roe, 257 F.3d 1077, 1080 n. 2 (9th Cir. 2001).

11

Id. at 1079–80.
2

App. 0017

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 3 of 9

1 grant bail pending a decision on a habeas corpus petition.” 12 The Ninth Circuit also stated in In
2 re Roe that, “[a]ssuming, arguendo, that a district court has the authority to release a state
3 prisoner on bail pending resolution of habeas proceedings in extraordinary cases,” the petitioner
4 must “make the requisite demonstration that this is an ‘extraordinary case[ ] involving special
5 circumstances or a high probability of success.’” 13 Based on In re Roe, I assume, for purposes of
6 Centofanti’s motion, that a federal court may grant pre-decisional release in a federal habeas
7 action in extraordinary cases.
8
B.
9

Centofanti has not demonstrated that his is an extraordinary case that merits predecision release.
The question of what standard governs pre-decisional release in a federal habeas action is

10

11 unsettled. As one district court recently explained, early case law “held that a conjunctive
12 standard, high probability of success and extraordinary circumstances is applicable.” 14 That
13 court goes on to note that the Ninth Circuit in Lands v. Deeds stated the standard in the
14 disjunctive—“as either high probability of success or extraordinary circumstances.” 15 Because
15
16
12

Id. at 1080; see also Hall v. San Francisco Superior Ct., 2010 WL 890044 (N.D. Cal. 2010)
17 (noting “that all of the other circuit courts that have decided the issue [of whether a federal
district court can release a state prisoner on bail pending a decision on the merits of his petition]
18 have concluded that the district court indeed possesses such authority”).
13

In re Roe, 257 F.3d at 1080 (quoting Land v. Deeds, 878 F.2d 318, 318 (9th Cir. 1989) (“Bail
pending a decision in a habeas case is reserved for extraordinary cases involving special
20 circumstances or a high probability of success.”)); see also Aronson v. May, 85 S. Ct. 3, 5 (1964)
(explaining that, in order to determine whether a habeas petitioner can be released on bail, “it
21 is . . . necessary to inquire whether, in addition to there being substantial questions presented by
the appeal, there is some circumstance making this application exceptional and deserving of
22 special treatment in the interests of justice”).
14
Malanje Phea v. C. Pfeiffer, No. 2:20-cv-WBS-GGH-P, 2020 WL 1892427, at *2 (E.D. Cal.
23 Apr. 16, 2020) (citing Aronson v. May, 85 S. Ct. 3 (1964) (per Justice Douglas).
19

15

Lands v. Deeds, 878 F.2d 318, 318 (9th Cir. 1989).
3

App. 0018

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 4 of 9

1 Centofanti has demonstrated neither a high probability of success or special circumstances, his
2 motion fails under either standard.
3

1.

4

Centofanti argues that he has a high probability of success on the merits of his petition,

High probability of success

5 especially Ground 1(a), in which he alleges that a juror in his trial concealed the fact that she had
6 a prior felony conviction. 16 I stayed Centofanti’s federal habeas action on July 2, 2014, pending
7 the resolution of his second state habeas petition and any appeal from it. 17 Respondents correctly
8 note that they have not yet had a chance to raise all potential procedural bars and merits
9 arguments regarding Centofanti’s petition and should have a full opportunity to do so before I
10 weigh in. 18 The underlying state litigation in this case is still ongoing, and once it’s concluded,
11 the respondents will get an opportunity—in an unrushed fashion—to raise any defenses to and
12 otherwise answer Centofanti’s petition, Centofanti will reply, and only then will I consider
13 whether an evidentiary hearing is necessary. 19 But until the state-court litigation is completed, I
14 cannot conclude that Centofanti has demonstrated that his federal habeas petition has “a high
15 probability of success.” 20 And even if Centofanti is ultimately successful on the merits of
16 Ground 1(a), whether release would be the appropriate remedy for that alleged error remains to
17 be seen.
18
19
20
21
22

16

ECF No. 45 at 5.

17

ECF No. 40 at 3–4.

18

ECF No. 49 at 10.

19

Centofanti alleges that he is entitled to a hearing in federal court to attempt to prove actual bias
23 on the part of a juror. ECF No. 45 at 9.
20

Roe, 257 F.3d at 1080.
4

App. 0019

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 5 of 9

1

2.

2

Nor can I conclude that special or extraordinary circumstances justify release.

Special or extraordinary circumstances

3 Centofanti, who is 51 years old, argues that his serious health issues put him at a high-risk of
4 suffering serious complications if he contracts COVID-19. 21 Centofanti was diagnosed with
5 stage four Hodgkin’s lymphoma last year and has received twelve rounds of chemotherapy. 22
6 He also suffers from diminished lung capacity and a possible undiagnosed heart condition. 23
7 Like nearly every other prisoner who has filed a COVID-19-based motion for release in the last
8 month, Centofanti insists that the prison population is especially likely to get infected because
9 prisoners cannot practice social distancing, cannot sanitize their living spaces, and cannot wash
10 their hands at will. 24 Although NDOC has modified prison policies in light of the COVID-19
11 pandemic, Centofanti predicts that it is only a matter of time before the spread begins because
12 asymptomatic and pre-symptomatic prison staff members could unwittingly spread the virus
13 despite these new policies. 25 He contends that if he contracts the virus, there is no reasonable
14 way the NDOC can guarantee him adequate treatment, especially considering that one study
15 concluded that patients with hematological cancers have a 33 % death rate from COVID-19. 26
16 Centofanti explains that he could live with his father or a friend, who both reside in Las Vegas,
17
18

21

ECF No. 45 at 23–25. Centofanti only cites to newspaper articles and press reports to
establish specific factual points about COVID-19 and the steps required for effective mitigation
19 of the risks presented by COVID-19.
20
21
22
23

22

Id. at 25.

23

Id.

24

Id. at 20.

25

Id. at 22–23.

26

Id. at 26–27; see also ECF No. 50 at 4. Centofanti acknowledges, however, that there is no
treatment for COVID-19, so the fear of inadequate treatment is not unique to those who are in
custody like him. ECF No. 45 at 26.
5

App. 0020

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 6 of 9

1 Nevada, if he were to be released. 27 These individuals would also assist him with various
2 logistics, such as arranging for any necessary medical treatment. 28
3

Respondents observe that Centofanti fails to support his health-related claims with any

4 medical reports or expert opinions and relies solely on declarations from a family member and an
5 intimate friend. 29 They note that there have been no confirmed instances of inmates being
6 diagnosed with COVID-19 at HDSP, 30 the medical staff at HDSP have ensured that Centofanti
7 will continue to receive medical care during the COVID-19 pandemic for his conditions, and
8 there is no guarantee or lower risk of Centofanti not acquiring COVID-19 if he were released
9 into the general public. 31
10

Importantly, respondents also point out that Centofanti has not shown that the NDOC is

11 unable or unwilling to address COVID-19 problems within Nevada’s prisons. 32 They explain
12 that the NDOC has instituted the following policies in response to COVID-19:
13
limiting transfers to and from institutions, screening all
individual[s] for COVID-19 signs and symptoms before entry and
precluding entry should there be any potential for concern or
positive indicators present, reminding inmates of the need to adopt
social distancing, ensuring proper cleaning and sanitization of the
institutions, and . . . ban[ning] in-person access to all institutions

14
15
16
17
18
19
20

27

ECF No. 45 at 30.

28

Id.

29

ECF No. 49 at 6. In response, Centofanti’s counsel notes, as of the date of her reply on May 1,
2020, that she has not yet received Centofanti’s signed release to request these records. ECF No.
21 50 at 4.
30

22

Centofanti notes that there have been three staff members at HDSP who have tested positive
for COVID-19. ECF No. 50 at 5.

23

31

ECF No. 49 at 6.

32

Id. at 7.
6

App. 0021

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 7 of 9

1

state-wide to all individuals except for employees and essential
vendors. 33

2
3

Courts across the United States have of course recognized the “unprecedented magnitude

4 of the COVID-19 pandemic,” 34 and I am deeply sympathetic to Centofanti’s concerns. But they
5 do not merit releasing him from the two consecutive life-without-parole terms that he has been
6 sentenced to serve. The first positive COVID-19 test in Nevada occurred on March 2, 2020. 35
7 While the number of COVID-19 positive tests have increased in the general population of the
8 state, there have been no confirmed COVID-19 cases among inmates housed at HDSP or even in
9 Nevada’s state prisons. 36 Even if an outbreak were to occur, as another court noted, “prison
10 authorities may be able to isolate highly at-risk prisoners, such as [Centofanti], more easily than
11 isolation or ‘social distancing’ is achieved in the general population, e.g., housing in
12 administrative segregation, partial lockdowns or transfers.” 37 In fact, NDOC’s COVID-19
13
14
15
16

33

Id. at 8.

34

United States v. Boatwright, No. 2:19-cr-00301-GMN-DJA, 2020 WL 1639855, at *5 (D. Nev.
Apr. 2, 2020).
35

See, e.g., Briana Erickson, Patient Zero in Nevada’s COVID-19 fight mending after month in
coma,
LV REV. J., Apr. 17, 2020, https://www.reviewjournal.com/local/north-las-vegas/patient17
zero-in-nevadas-covid-19-fight-mending-after-month-in-a-coma-2008589/
18
19
20
21
22
23

36

Centofanti asserts that this conclusion does not account for how quickly the virus spreads and
that there is simply no way to litigate this issue fast enough once there is a reported outbreak to
ensure his prompt release. ECF No. 45 at 27; ECF No. 50 at 6. He contends that, by the time the
prison publicly reports a confirmed case, an outbreak may already be underway; thus, release
before a confirmed outbreak is the only way to mitigate the risk. ECF No. 45 at 28.
Alternatively, Centofanti asks me to conditionally grant him release if and when an inmate at
HDSP tests positive, order the State to begin widespread testing at HDSP, and order the State to
immediately notify me the moment HDSP receives confirmation of a confirmed inmate positive
test. ECF No. 50 at 12. Though I appreciate Centofanti’s concerns and intend to promptly
address each such motion I receive, I do not find that a conditional release or order mandating
widespread testing is warranted.
37

Malanje Phea, 2020 WL 1892427, at *2.
7

App. 0022

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 8 of 9

1 protocols provide for isolation in the event an inmate exhibits COVID-19 symptoms. 38 There is
2 also no evidence that the NDOC would not be able to transport COVID-19 positive inmates who
3 need medical support to local hospitals. So the notion that Centofanti would be better protected
4 from the virus by releasing him into the community in a state with more than 5,000 positive-test
5 cases is speculation. 39 I therefore cannot conclude that special circumstances justify Centofanti’s
6 release.
7

Conclusion

8

Centofanti has not demonstrated that his federal habeas case is an extraordinary one

9 involving a high probability of success or special circumstances, justifying his release from two
10 life-without-parole sentences for murder. 40
11

IT IS THEREFORE ORDERED that Petitioner’s Emergency Motion for Release [ECF

12 No. 45] is denied.
13

And because I addressed the merits of that emergency motion, IT IS FURTHER

14 ORDERED that Petitioner’s Motion to Reopen for Limited Purpose of Litigating Emergency
15
16

38

NDOC’s current COVID-19 protocols include this provision:
If an offender is suspected of having an illness, or if they self-report feeling ill,
NDOC medical staff immediately assess the offender and place them in that
facility’s infirmary or medically observes them in their cell. Medical staff utilize
the appropriate test kits, some of which are provided by the State of Nevada,
which are then tested by the State Epidemiologist, to determine a diagnosis and
treatment.

17
18
19

20 State of Nevada Department of Corrections, NDOC COVID-19 UPDATES, implemented
protocol 10, http://doc.nv.gov/About/Press_Release/covid19_updates/, last visited
21 5/1/2020.
39

22

https://covidtracking.com/data#state-nv, last visited 5/1/2020.

40

In re Roe, 257 F.3d at 1080 (alteration in original). I note that the parties made several
arguments and cited to several cases not discussed above. I have reviewed these arguments and
23
cases and determine that they do not warrant discussion because they do not affect the outcome
of the motion.
8

App. 0023

Case 2:13-cv-01080-JAD-PAL Document 52 Filed 05/04/20 Page 9 of 9

1 Motion [ECF No. 47] is GRANTED; however, because that limited purpose has concluded, the
2 STAY is hereby reinstated.
3

Dated: May 4, 2020

4

_______________________________
U.S. District Judge Jennifer A. Dorsey

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23

9

App. 0024

EXHIBIT F

EXHIBIT F

App. 0025
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 2 of 11

App. 0026
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 3 of 11

App. 0027
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 4 of 11

App. 0028
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 5 of 11

App. 0029
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 6 of 11

App. 0030
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 7 of 11

App. 0031
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 8 of 11

App. 0032
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 9 of 11

App. 0033
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 10 of 11

App. 0034
Case 2:13-cv-01080-JAD-PAL Document 21-14 Filed 11/22/13 Page 11 of 11

App. 0035

EXHIBIT G

EXHIBIT G

App. 0036
Case 2:13-cv-01080-JAD-PAL Document 21-8 Filed 11/22/13 Page 2 of 3

App. 0037
Case 2:13-cv-01080-JAD-PAL Document 21-8 Filed 11/22/13 Page 3 of 3

